CERTIFICATE OF SERVICE
I, William Ford, do hereby swear or declare under the penalty of perjury that as required
by Supreme Court Rule 29, I have served a true and exact copy of this Petition for Writ of
Certiorari and Motion For Leave to Proceed in Forma Pauperis by first-class mail, postage
prepaid to the following counsel for the Respondent and others of interest and/or otherwise
required to be served:
Mr. Herbert Slatery, II
Tennessee Attorney General
Counsel for Respondent
TAG’S Office
425 5th Avenue North
P.O. Box 20207
Nashville, Tennessee 37202
On this

day of

Jtfl

3

2020.
4r

William Ford

CERTIFICATE OF MAILING
I, Petitioner, William Ford, do hereby declare under the penalty of perjury that I have
mailed the enclosed Petition for Writ of Certiorari to the United States Supreme by first class
mail postage prepaid to the following address:
Office of Clerk
Supreme Court of the United States
Washington, DC 20543-0001
On this

I^

day of

2020.

William Ford

(

